USCA4 Appeal: 19-1849

Doc: 24

Filed: 09/23/2019

Pg: 1 of 5

FILED: September 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-1849 (L)
(2:10-md-02187)
___________________
In re: C. R. BARD, INC., Pelvic Repair System Products Liability Litigation
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1850
(2:12-md-02325)
___________________
In re: AMERICAN MEDICAL SYSTEMS, INCORPORATED, Pelvic Repair
System Products Liability Litigation
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.

APX. 0001

USCA4 Appeal: 19-1849

Doc: 24

Filed: 09/23/2019

Pg: 2 of 5

COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1851
(2:12-md-02326)
___________________
In re: BOSTON SCIENTIFIC CORPORATION, Pelvic Repair System Products
Liability Litigation
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1853
(2:12-md-02327)
___________________
In re: ETHICON, INC., Pelvic Repair System Products Liability Litigation
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants

APX. 0002

USCA4 Appeal: 19-1849

Doc: 24

Filed: 09/23/2019

Pg: 3 of 5

v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1855
(2:12-md-02387)
___________________
In re: COLOPLAST CORP., Pelvic Support Systems Products Liability Litigation
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1856
(2:13-md-02440)
___________________
In re: COOK MEDICAL INC., Pelvic Repair System Products Liability Litigation
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants

APX. 0003

USCA4 Appeal: 19-1849

Doc: 24

Filed: 09/23/2019

Pg: 4 of 5

v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1857
(2:14-md-02511)
___________________
In re: NEOMEDIC PELVIC REPAIR SYSTEM PRODUCTS LIABILITY
LITIGATION
-----------------------------ANDERSON LAW OFFICES; BENJAMIN H. ANDERSON
Appellants
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
No. 19-1892
(2:12-md-02327)
___________________
In re: ETHICON, INCORPORATED, Pelvic Repair System Products Liability
Litigation
-----------------------------BERNSTEIN LIEBHARD LLP

APX. 0004

USCA4 Appeal: 19-1849

Doc: 24

Filed: 09/23/2019

Pg: 5 of 5

Appellant
v.
COMMON BENEFIT FEE AND COST COMMITTEE
Appellee
___________________
ORDER
___________________
Upon review of submissions relative to the motions to dismiss and the
motion for stay pending appeal, the Court grants the motions to dismiss and
denies the motion for stay pending appeal.
Entered at the direction of Judge Agee with the concurrence of Judge King
and Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk

APX. 0005

Case 2:12-md-02327 Document 8471 Filed 08/02/19 Page 1 of 3 PageID #: 205963

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: ETHICON, INC.,
PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY LITIGATION
MDL NO. 2327
______________________________________________________________________________
THIS DOCUMENT RELATES TO ALL CASES
ORDER
Pending before the court is Anderson Law Offices’ Motion for Stay of Execution [ECF
No. 8455]. Anderson Law Offices (“ALO”) requests that I stay my allocation order entered on
July 25, 2019, pending an appeal.
At its inception, I took steps to ensure qualified and representative participation in the tasks
necessary for the development of this massive litigation. During its course, I regularly prescribed
standard guidance across all seven MDLs for the common benefit work to be performed, evaluated
and compensated. That guidance was designed to ensure fairness, transparency, and efficiency.
I specifically addressed the structure for the performance of common benefit work, the
establishment of a common benefit fund, and I prescribed conditions for participation in the
performance of common benefit work. All the participating law firms agreed to the conditions for
participation which included a waiver of any right to appeal my final determination as to fee and
cost allocations. This provision was considered desirable by the participants and by me, as we were
all aware of the potential for tactical peripheral litigation concerning attorneys’ fees. The earlier
appeal by Kline & Spector and the pending motion makes plain that we were prescient.

APX. 0006

Case 2:12-md-02327 Document 8471 Filed 08/02/19 Page 2 of 3 PageID #: 205964

Further, I provided firm guidance for the open, fair, and exhaustive evaluation of common
benefit claims for compensation. I appointed a Fee and Cost committee that was broadly
representative and established standards and considerations for their work in evaluating claim
submissions by participating law firms. After careful review, I found that the Fee and Cost
Committee performed that work consistent with my orders and guidance, and I adopted their final
recommendation as adjusted by the external review specialist [ECF No. 7640]. I entered the
allocation order.
Now, ALO seeks to stay that order pending an appeal that it intends to pursue. I carefully
considered its motion and supporting memoranda as well as the response of the Fee and Cost
Committee and ALO’s reply.
Any movant for a stay pending appeal must make a strong showing that he is likely to
succeed on the merits. See, e.g., Nken v. Holder, 556 U.S. 418, 434 (2009). Upon consideration, I
find no good-faith legal basis for ALO’s motion for a stay pending appeal much less a chance for
success on the merits. ALO along with other participating counsel “knowingly and voluntarily
agreed to be bound by the district court’s attorneys’ fees and expenses determinations and, thus . .
. waived its right to appeal its attorneys’ fees and expenses award.” In re Ethicon, Inc., Nos. 191224–30 (4th Cir. 2019). One who has waived his right to appeal has no chance of succeeding with
it.
I considered all four factors necessary for granting a stay and FIND that Anderson Law
Offices has failed to carry the heavy burden of showing circumstances that justify the issuance of
the discretionary stay. The motion for stay is DENIED.
The court DIRECTS the Clerk to file a copy of this order in 2:12-md-2327. It shall be the
responsibility of the parties to review and abide by all pretrial orders previously entered by the

2

APX. 0007

Case 2:12-md-02327 Document 8471 Filed 08/02/19 Page 3 of 3 PageID #: 205965

court. The orders may be accessed through the CM/ECF system or the court’s website at
www.wvsd.uscourts.gov.
ENTER: August 2, 2019

3

APX. 0008

Case 2:12-md-02327 Document 8453 Filed 07/25/19 Page 1 of 6 PageID #: 205790

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
IN RE: ETHICON, INC.,
PELVIC REPAIR SYSTEM
PRODUCTS LIABILITY LITIGATION
MDL NO. 2327
______________________________________________________________________________
THIS DOCUMENT RELATES TO ALL CASES
PRETRIAL ORDER # 342
MEMORANDUM OPINION AND ORDER
(Re: Allocation Order)
I am in receipt of the Fee and Cost Committee’s (“FCC”) Final Written Recommendation,
with the External Review Specialist’s Recommended Allocation for distribution of the common
benefit fund. [ECF Nos. 7640, 7640-1]. These recommendations have been made in response to
this court’s Order finding that a 5% holdback of the plaintiffs’ total recoveries was reasonable for
compensating plaintiffs’ attorneys for common benefit work (“Fee Award Order”). PTO # 327
[ECF No. 7519]. I hereby INCORPORATE BY REFERENCE my Fee Award Order entered on
January 30, 2019. I have carefully reviewed the FCC’s Final Written Recommendation and the
External Review Specialist’s suggested modifications to the FCC’s recommendation, as well as
the very few objections thereto. I FIND the recommended distribution to be fair and reasonable. I
hereby ADOPT and INCORPORATE BY REFERENCE the FCC’s Final Written
Recommendation as submitted by the FCC, and as adjusted after consideration by the Honorable
Daniel J. Stack, Retired, External Review Specialist, pursuant to the protocol agreed to by the
parties and ordered by me. I OVERRULE each of the objections [ECF Nos. 7709, 7712, 7715,
7718, 7733, 7747] and ORDER the distribution as recommended in Judge Stack’s modification

APX. 0009

Case 2:12-md-02327 Document 8453 Filed 07/25/19 Page 2 of 6 PageID #: 205791

to the FCC’s Final Written Recommendation. [ECF No. 7640-1 at 30-35]. I ORDER the chairman
of the FCC to direct the accounting firm holding the fund to distribute monies to pay expenses and
MDL assessments according to Judge Stack’s “Recommended Allocation of Expenses” and to
disperse the remaining money on deposit as of July 25, 2019, according to Judge Stack’s
“Recommended Allocation of Fees.” [ECF No. 7640-1 at 30-35]. The common benefit fund is held
by Smith Cochran & Hicks in seven different MDL accounts, which taken together are considered
by me, and referred to by the FCC, as the common benefit fund.
This extraordinarily large group of multidistrict litigation required unprecedented
coordination and cooperation among and between the leadership counsel and those other lawyers
who performed work for the common benefit of each of the individual plaintiffs. I entered the
Order Establishing Criteria for Applications to . . . MDL Fund to Compensate and Reimburse
Attorneys for Services Performed and Expenses Incurred for MDL Administration and Common
Benefit and Appointment of Common Benefit Fee and Cost Committee (“Appointment Order”)
on January 15, 2016, which “identif[ied] a process and committee” (the FCC) for determining
common benefit fund allocations. PTO # 211 [ECF No. 1845]. I hereby INCORPORATE BY
REFERENCE the Appointment Order that I entered on January 15, 2016. The FCC, tasked with
making fee award recommendations for common benefit work, included lawyers in law firms
representing or substantially responsible for the resolution of approximately 75% of the more than
100,000 cases filed in the seven MDLs assigned to me.
Members of the FCC were major contributors to, and claimants of, the monies contributed
to the common benefit fund. Their diverse and competing interests offered a large measure of
mutually assured fairness to the process. The lawyers appointed to the FCC were known to me to
be the most active in the broadest range of cases across the seven MDLs. That is, the composition

2

APX. 00010

Case 2:12-md-02327 Document 8453 Filed 07/25/19 Page 3 of 6 PageID #: 205792

of the FCC significantly contributed to a process that was structurally designed for transparency
and equitable distribution of common benefit fund monies.
I entered the Fee Committee Protocol (“Protocol Order”), PTO # 262, on June 23, 2017,
which established more specific procedures assuring procedural fairness in making claims against
the common benefit fund [ECF No. 4044]. I hereby INCORPORATE BY REFERENCE the
Protocol Order that I entered on June 23, 2017. That Order specified the tasks required of each
attorney claimant, set a December 21, 2016 cut-off date (“cut-off date”) for submitting common
benefit time and expense records, outlined the procedural steps for making claims, and provided
structural steps to guide the FCC’s performance of its duties. Id.
The procedural guidance to claimants assured fairness by offering multiple opportunities
for each claimant to refine their claims, to object to preliminary conclusions, to advocate for
changes, and to object to the penultimate recommendation of the FCC. Finally, each firm was
entitled to pursue their objections by requesting a further evaluation from the External Review
Specialist, Judge Stack, appointed by me. Each firm was then afforded the opportunity to object
to the External Review Specialist’s final recommendation by appealing to me.
The substantive determinations as to the recommended allocation of monies made by the
FCC, as adjusted by Judge Stack, followed guidance that I provided in part C of the Protocol Order.
[ECF No. 4044 at 5-8]. Of course, the task of allocating the common benefit fund among claimants
required an individualized analysis that was, as I had directed, guided by more subjective factors.
That guidance principally focused on the extent to which a claimant’s work contributed to the
overall resolution of the mesh litigation. The FCC and Judge Stack properly gave great weight to
the quality and impact of each claimant’s efforts.
The self-audited time and expense records of law firms seeking common benefit

3

APX. 00011

Case 2:12-md-02327 Document 8453 Filed 07/25/19 Page 4 of 6 PageID #: 205793

compensation were submitted and carefully reviewed by two members of the FCC and then further
reviewed by the entire FCC. These reviews were guided by my court orders and were accompanied
by presentations to every member of the FCC. I would note that MDL leadership was also
recommended for compensation and was treated the same as all of the non-FCC claimant firms.
The process was exhaustive. Over 900,000 hours were claimed as time spent for the common
benefit. After the complete review process, the FCC approved roughly 679,000 hours for
compensation. [ECF No. 7640 at 17].
The Final Written Recommendation of the FCC was then sent to the External Review
Specialist, Judge Stack, for the purposes of ensuring procedural fairness and providing a finalized
recommendation to this court. Although Judge Stack received these finalized materials from the
FCC after a nearly two-year review by the FCC, he was already familiar with the litigation from
“assist[ing] the FCC in its duties of evaluating the time and expenses submitted for consideration
in this MDL, and [from] aid[ing] the FCC in any way [that was] appropriate in performing the
work of the FCC and in furtherance of the directive and mandates” this court established in its
Protocol Order. [ECF No. 7640-1]. Judge Stack “was able to evaluate the nature and quantity of
the work performed by each applicant firm in considering each applicant firm’s contribution to the
outcome of the litigation[]” because he was present for each firm’s presentations to the FCC. Id.
at 13.
Eight firms objected to the FCC’s Final Written Recommendation as submitted to Judge
Stack. These objectors were provided another opportunity to be heard by the External Review
Specialist. Judge Stack heard from each remaining objecting firm and considered their concerns
with the entire process. Judge Stack permitted and considered “additional materials and arguments
advanced beyond what had been presented previously.” [ECF No. 7640-1 at 14]. During the

4

APX. 00012

Case 2:12-md-02327 Document 8453 Filed 07/25/19 Page 5 of 6 PageID #: 205794

process, Judge Stack resolved the objections of half of the firms, leaving only four objectors out
of 94 firms seeking common benefit compensation.
After Judge Stack finished his recommendation, the Final Written Recommendation as
adjusted by Judge Stack was then provided to the court. There were only four remaining objectors
and one objection by a non-lawyer. As I stated in the Participation Agreement referenced in the
Fee Award Order, only MDL lawyers and lawyers who signed the agreement are eligible for
common benefit compensation. Therefore, the one non-lawyer objection [ECF No. 7733] is
DENIED.
The four remaining objectors focus upon the structure and results of the allocation process
which they agreed to several years ago. The objectors have had many opportunities to object,
including to the FCC, the External Review Specialist, and me. Having considered each of their
objections, I find that they are entirely without merit. All of the remaining objections [ECF Nos.
7709, 7712, 7718, 7747] are DENIED.
Because most of the required and useful common benefit work was completed before the
cut-off date for time and expense submissions as stated in the Protocol Order [ECF No. 4044 at
2], and because I have sufficient knowledge of the MDLs’ history to make allocations for all of
the common benefit work performed, the FCC recommends that I allocate all future common
benefit money collected after the entry of this order according to the same percentages. However,
because there was some minimal, but necessary work performed after the cut-off date, the FCC
recommends that I withhold 30% of all money collected after entry of this order to be evaluated
for common benefit compensation at a later time. I agree.
Therefore, the court ORDERS that all expenses and MDL assessments noted in the
External Review Specialist’s “Recommended Allocation of Expenses” be dispersed to each firm

5

APX. 00013

Case 2:12-md-02327 Document 8453 Filed 07/25/19 Page 6 of 6 PageID #: 205795

according to the “Total Expense and MDL Assessment” column of the recommendation. [ECF
No. 7640-1 at 32-35]. The court also ORDERS that all of the common benefit money on hand as
of July 25, 2019, after subtracting the expenses and assessments mentioned above, be dispersed
according to the External Review Specialist’s “Recommended Allocation of Fees” for each firm
as listed under the “External Review Specialist’s Recommendation Allocation” column of the
recommendation. [ECF No. 7640-1 at 30-31]. For all future common benefit money received after
July 25, 2019, the court ORDERS that the common benefit fund’s accounting firm, Smith Cochran
& Hicks, disperse 70% of the received money on a quarterly basis according to the External
Review Specialist’s “Recommended Allocation of Fees” percentages that are listed under the
“External Review Specialist’s Recommended Allocation” column of the recommendation. [ECF
No. 7640-1 at 30-31]. The first quarterly payments shall be made with monies on deposit as of
January 1, 2020 and shall be paid by Smith Cochran & Hicks by January 15, 2020, and quarterly
thereafter. Finally, the court ORDERS that the remaining 30% be held in the common benefit
fund for a final evaluation of common benefit compensation until a further order of the court.
The court DIRECTS the Clerk to file a copy of this order in 2:12-md-2327. It shall be the
responsibility of the parties to review and abide by all pretrial orders previously entered by the
court. The orders may be accessed through the CM/ECF system or the court’s website at
www.wvsd.uscourts.gov.
ENTER: July 25, 2019

6

APX. 00014

